              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR



                                                                                             September 29, 2011

Memorandum

To:           RheaS. Suh, Assistant Secretary for Policy, Management and Budget
              Robert V. Abbey, Director, Bureau of Land Management
              Daniel M. Ashe, Director, U.S. Fish and Wildlife Service
              Jonathan B. Jarvis, Director, National Park Service

From:         Michael P. Colombo / ,../ / /} / / /~
              Regional Manager ~ {_, V<--(' I ' ~~~vU.                          *f-D
Subject:      Verification Review of 24 Recommendations from our September 2009 Report
              "Evaluation of Department of the Interior Challenge Cost Share Programs"
              (Report No. WR-EY-MOA-0004-2008)
              Report No. WR-YS-MOA-0013-20 11

        The Office of Inspector General (OIG) has completed a verification review of 24
recommendations presented in the subject evaluation report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. Department of the Interior
Guidance Release 2010-05 (Departmental Guidance), issued on September 17, 2010, provided a
framework for implementing the recommendations. On September 20, 2010, PFM notified OIG
that the three bureaus, the Bureau of Land Management (B LM), the U.S. Fish and Wildlife
Service (FWS) , and the National Park Service (NPS) had completed the actions required to close
all 24 recommendations in the report.

Background

        Our September 2009 report, "Evaluation of Department of the Interior Challenge Cost
Share Programs" (Report No. WR-EV-MOA-0004-2008), made 24 recommendations to BLM,
FWS, and NPS (eight recommendations to each bureau) to correct underl ying programmatic
deficiencies, which have prevented the Department from maximizing the partnership and
leveraging potential of the Challenge Cost Share (CCS) Program (Program). The report
identified that, in part, these deficiencies were a result of the metamorphosis of a constantly
changing Program.

       The Ass istant Secretary, Policy, Management and Budget, responded on November 12,
2009, that they concurred with the recommendation that BLM, FWS, and NPS collaborate to
develop and implement consistent policies and procedures for the Program that would
accomplish the eight specific requirements contained in the report. The bureaus agreed to work



                        Office of A udits, Inspections, and Evaluatio ns I Sacramento, C A
with the appropriate Departmental offices to develop and implement a Department-wide policy
for the Program that would outline best practices for program operations and reporting. In
addition, the bureaus would develop the appropriate internal controls consistent with the
Departmental Guidance. As a result, we referred all 24 of the report's recommendations to PFM
for implementation tracking on December 3, 2009.

Scope and Methodology

       The scope of this review was limited to determining whether the Department and the
bureaus took adequate actions to implement the reported recommendations. To accomplish our
objective, we reviewed the supporting documentation that PFM used to close the
recommendations. We also interviewed BLM, FWS, and NPS officials to gather additional
information on the actions taken to implement the recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initiall y identified have actually been corrected. As
a result, this review was not conducted in accordance with the "Government Auditing Standards"
issued by the Comptroller General of the United States or the "Quality Standards for
Inspections" issued by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Our current review found that BLM has implemented Recommendation 1 through 8;
FWS has implemented Recommendations 1 through 6, but has not implemented
Recommendations 7 and 8; and NPS has implemented Recommendations 2, 4, 5, 6, and 7, but
ha not implemented Recommendations 1, 3, and 8. The status of the recommendations is
summarized in Appendix 1.

       Recommendation 1: Require CCS funding announcements be posted to Grants.gov.

       Departmental Guidance estab lished that all bureaus must follow ex isting policy,
505 OM 2, Procurement Contracts, Grant and Cooperative Agreements, thereby maintaining
transparency consistent with the customer service mandates prescribed in Public Law 106-107.

       Interviews with BLM and FWS officials, and a high level review of Grants.gov,
substantiated that efforts have been made to implement Recommendation 1. As a result, we
concluded that BLM and FWS have implemented Recommendation 1.

       NPS, however, does not require that CCS funding announcements be posted on
Grants.gov. According to the Departmental Manual (505 DM 2), in order to allow the public to
view potential fund ing opportunities thereby maintaining transparency consistent with the
customer service mandates prescribed in Public Law 106- 107, synopses of all cooperative
agreement and discretionary grant funding opportunities must be posted to Grants.gov. By not
posting and reporting CCS funding announcements in Grants.gov, NPS limits the transparency of
the Program and is not in compliance with existing policy. We concluded that NPS has not



                                                                                                  2
implemented Recommendation 1 and that the recommendation should be reinstated and
classified as not implemented.

       Recommendation 2: Require bureaus to obtain partner commitment letters before
submitting project proposals and enter into appropriate written agreements (cooperative
agreement or contract) with each partner prior to the start of a CCS project.

       Departmental Guidance established that the bureaus must require partners to submit a
Commitment Document with the application package prior to starting a project. In addition, the
guidance provides that if funds are to be transferred outside a bureau to a cooperator, a
cooperative agreement or a contract must be used consistent with 505 DM 2 pertaining to
appropriate instrument selection.

       Interviews with each of the bureau officials confirmed that commitment letters are being
obtained from partners prior to the start of a CCS project and that the appropriate cooperative
agreement or contract is being utilized for CCS projects. FWS has reiterated this need during
meetings with regional management, and NPS has outlined the criteria in its CCS Program
Guidelines and Procedures.

       The Departmental Guidance, which has been supported by the bureaus' actions, provides
evidence that efforts are being made to implement Recommendation 2. As a result, we concluded
that BLM, FWS, and NPS have implemented Recommendation 2.

       Recommendation 3: Require CCS awards be reported in the Federal Ass istance Award
Data System, as applicable.

        Departmental Guidance established that all bureaus must follow existing policy of
3 1 U.S.C. 6102, Money and Finance, pertaining to reporting awards in the Federal Ass istance
Award Data System (FAADS).

       Interviews with BLM and FWS officials, and a high level review of FAADS,
substantiated that the bureaus have made efforts to implement Recommendation 3. We therefore
concluded that BLM and FWS have implemented Recommendation 3.

        NPS, however, does not require reporting of awards in FAADS. By not reporting CCS
agreements in FAADS, NPS limits the transparency of the Program and is not in compli ance
with existing policy. We concluded that NPS has not implemented Recommendation 3, and
therefore, the recommendation should be reinstated and classified as not implemented.

        Recommendation 4: Require partners to accurately track all project expenditures,
including labor and volunteer hours and other in-kind contributions, and submit this information
to the bureaus prior to reimbursement.

        Departmental Guidance established that all bureaus must obtain a cooperator
Certification Addendum (Certification) at the conclusion of a project. The Certification must be
part of the CCS file and verifies cooperator volunteer hours, in-kind service, and other in-kind
contributions.

                                                                                                   3
        Whil e the Departmental Guidance does not elaborate that the information outlined in
Recommendation 4 should be obtained "prior" to reimbursement, interviews with bureau
officials confirmed that this practice is occurring and that the recommendation has been
implemented. FWS officials have reiterated this need during meetings with regional
management, and NPS has outlined the criteria in its CCS Program Guidelines and Procedures.
BLM officials are confident that this infmmation is required prior to reimbursement and, while a
financial system is not in place to accommodate filing of this information, the manual logs which
are maintained in project fi les are tracking this information.

       The Departmental Guidance, which has been supported by the bureaus' actions, provides
evidence that efforts are being made to implement Recommendation 4. As a result, we concluded
that BLM , FWS, and NPS have implemented Recommendation 4.

        Recommendation 5: Require partners to submit a written statement at the conclusion of
the project, certifying that all agreed- to tasks were performed and matching contributions
provided.

       Departmental Guidance established that all bureaus must obtain a Certification at the
conclusion of a project. The Certification verifies cooperator volunteer hours, in-kind service,
and other in-kind contributions.

        Interviews with bureau officials confirmed that this recommendation has been
implemented. NPS CCS guidance provides guidelines, while FWS officials have reiterated this
requirement during meetings with regional management. BLM officials tated that an after action
report also includes pictures and highlights of accomplishments.

       The Departmental Guidance, which has been supported by the bureaus' actions, provides
evidence that efforts are being made to implement Recommendation 5. As a result, we concluded
that BLM, FWS, and NPS have implemented Recommendation 5.

       Recommendation 6: Require return of all unspent CCS funds for reallocation to other
approved proj ects, including all unused funds at the completion of a project, at project period
end, and from projects that did not go forward.

        Departmental Guidance established that all unspent agency funds allocated to a CCS
project must be returned to the reporting unit for reallocation to other approved projects
including all unused funds at the end of a project and funds from projects that did not move
forward .

        Interviews with bureau officials confirmed that thi s recommendation has been
implemented. BLM has developed a project code to track CCS funds to ensure that they remain
allocated to CCS projects. BLM has also developed priority lists to ensure approved proj ects are
ready for available funding if CCS funds are returned to the reporting unit. If CCS funds become
available within NPS, the NPS CCS guidance provides that the funds should be allocated by the
Regional Director or Associate Director to the next priority project that can be accomplished



                                                                                                   4
with the available funds. FWS also stated that if CCS funds are not used, they would be
deobligated and reallocated to another CCS project.

       The Departmental Guidance, which has been supported by the bureaus' actions, provides
evidence that efforts are being made to implement Recommendation 6. As a result, we concluded
that BLM, FWS, and NPS have implemented Recommendation 6.

       Recommendation 7: Require accurate reporting of CCS Program accomplishments,
including the Federal to non-Federal matching ratio, to Congress.

      Departmental Guidance, estab lished that all bureaus must report CCS Program
accomplishments, including the Federal to non-Federal matching ratio to Congress, as required.

          Interviews with BLM and NPS bureau officials confirmed that the y have taken action to
imp lement this recommendation. NPS posts Program accomplishments on their CCS website,
which is also available for reporting to Congress. BLM Program accomplishments are reported
to Congress through a variety of avenues including an accomplishment report and budget
j ustifications. As a result, we concluded that BLM and NPS have implemented
Recommendation 7.

       FWS , however, was not reporting contribution information at the time of the O JG
evaluation, and could not provide evidence during this verification review to support that efforts
have been taken to implement Recommendation 7. We concluded that FWS has not implemented
Recommendation 7, and therefore, the recommendation should be reinstated and classified as not
implemented.

       Recommendation 8: Require periodic management control reviews be performed on the
CCS Program to ensure that bureaus have complied with all existing Program policies and
procedures.

        Departmental Guidance established that all bureaus must perform periodic management
control reviews following existing policy, OMB Circular A-123 and DOl Integrated Internal
Control Program Guidance. The reviews are essential to ensure that commitment letters, written
agreements, partner matching contributi ons and certifications, and related Program policies and
procedures are met. Without these reviews, Program weaknesses can go undetected.

        A BLM official stated that they have a process for doing periodic management control
reviews on the CCS Program and reviews will be performed in the future. We therefore
concluded that BLM has implemented Recommendation 8. FWS and NPS, however, had no
process in place to implement management control reviews at the time of the OIG evaluation.
FWS and NPS offi cials stated that they had not taken action to perform periodic reviews of the
CCS Program. We concluded that FWS and NPS have not implemented Recommendation 8, and
therefore, the recommendation should be reinstated and classified as not implemented.




                                                                                                   5
Conclusion

      We informed Departmental and bureau officials of the results of this review. FWS and
NPS should provide PFM with information of the actions it will perform to implement the
recommendations by October 31 , 2011.

Responding to the Report

        We request that PFM reinstate Recommendations FWS-7, FWS-8, NPS-1, NPS-3, and
NPS-8 as not implemented from the subject evaluation report and inform us of the actions to be
taken for these recommendations.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc:    Eric Eisenstein, Division Chief, Internal Control and Audit Follow-up, Office of
       Financial Management
       Nancy Thomas, Audit Liaison Officer, Office of Financial Management
       Sharon Blake, Audit Liaison Officer, Office of Financial Management
       Jacob Lee, Audit Liaison Officer, Bureau of Land Management
       Patrick McHugh, Audit Liaison Officer, U.S. Fish and Wildlife Service
       Vera Washington, Audit Liaison Officer, National Park Service




                                                                                                 6
Appendix 1:
Status of Recommendations
 Recommendation              Status                  Action Required
BLM
1, 2, 3, 4, 5, 6, 7, 8   Implemented   No further action is required.
FWS
1, 2, 3, 4, 5, 6         Implemented   No further action is required.
7, 8                     Not           We are requesting that PFM reinstate these
                         implemented   recommendations. The Director, FWS,
                                       should provide a plan identifying actions to
                                       be taken, target dates for implementation,
                                       and titles of officials responsible for
                                       implementation.
NPS
2, 4, 5, 6, 7            Implemented   No further action is required.
1, 3, 8                  Not           We are requesting that PFM reinstate these
                         implemented   recommendations. The Director, NPS,
                                       should provide a plan identifying actions to
                                       be taken, target dates for implementation,
                                       and titles of officials responsible for
                                       implementation.




                                                                                      7
